<html>
<title> - ASSESSING U.S. SPECIAL OPERATIONS COMMAND'S MISSIONS AND ROLES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 109-129]
 
     ASSESSING U.S. SPECIAL OPERATIONS COMMAND'S MISSIONS AND ROLES 

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 29, 2006

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     U.S. GOVERNMENT PRINTING OFFICE

33-596 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
  


























    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    JIM SAXTON, New Jersey, Chairman
ROBIN HAYES, North Carolina          MARTY MEEHAN, Massachusetts
W. TODD AKIN, Missouri               ADAM SMITH, Washington
JOE WILSON, South Carolina           MIKE McINTYRE, North Carolina
JOHN KLINE, Minnesota                ELLEN O. TAUSCHER, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
GEOFF DAVIS, Kentucky                JAMES R. LANGEVIN, Rhode Island
JOEL HEFLEY, Colorado                RICK LARSEN, Washington
MAC THORNBERRY, Texas                JIM COOPER, Tennessee
JIM GIBBONS, Nevada                  JIM MARSHALL, Georgia
JEFF MILLER, Florida                 CYNTHIA McKINNEY, Georgia
FRANK A. LoBIONDO, New Jersey
               Alex Kugajevsky, Professional Staff Member
                 Bill Natter, Professional Staff Member
                    Brian Anderson, Staff Assistant


























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Thursday, June 29, 2006, Assessing U.S. Special Operations 
  Command's Missions and Roles...................................     1

Appendix:

Thursday, June 29, 2006..........................................    29
                              ----------                              

                        THURSDAY, JUNE 29, 2006
     ASSESSING U.S. SPECIAL OPERATIONS COMMAND'S MISSIONS AND ROLES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Meehan, Hon. Martin T., a Representative from Massachusetts, 
  Ranking Member, Terrorism, Unconventional Threats and 
  Capabilities Subcommittee......................................     2
Saxton, Hon. Jim, a Representative from New Jersey, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1

                               WITNESSES

Boot, Max, Senior Fellow in National Security Studies, Council on 
  Foreign Relations..............................................     8
Downing, Gen. Wayne A. (Ret.), Chairman, Combating Terrorism 
  Center, U.S. Military Academy at West Point....................     2
Vickers, Michael G., Director of Strategic Studies, Center for 
  Strategic and Budgetary Assessments............................     6

                                APPENDIX

Prepared Statements:

    Boot, Max....................................................    43
    Saxton, Hon. Jim.............................................    33
    Vickers, Michael G...........................................    38

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
     ASSESSING U.S. SPECIAL OPERATIONS COMMAND'S MISSIONS AND ROLES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                           Washington, DC, Thursday, June 29, 2006.
    The subcommittee met, pursuant to call, at 10:31 a.m., in 
room 2212, Rayburn House Office Building, Hon. James Saxton 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW 
    JERSEY, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Saxton. Good morning.
    I have an opening statement that I am going to ask be put 
in the record.
    The purpose of today's hearing is to update ourselves on 
the activities and capabilities of the Special Operations 
Command.
    As the threat changes, our capabilities have to change as 
well. And one of the agile parts of our national security 
system is Special Operations Command (SOCOM), and the agility 
never ceases to amaze me and how we identify threats and change 
our tactics and procedures to meet those threats. SOCOM has 
been very good at that over the years.
    So we thought we would get together this outside panel to 
give us a current look at how SOCOM activities are perceived, 
experts who are not necessarily still or have been part of 
Special Operations Command.
    With us today are General Wayne Downing, Chairman, 
Combating Terrorism Center, U.S. Military Academy at West 
Point. I would especially like to thank General Downing for 
being with us today as a former commander of SOCOM. I am sure 
your testimony will be particularly enlightening.
    And also, Michael Vickers, director of strategic studies, 
Center for Strategic and Budgetary Assessments; and Max Boot, 
senior fellow of the National Security Studies Council on 
Foreign Relations. We look forward to hearing from you.
    But before we do that let me ask my friend and companion 
here, Marty Meehan, for any comments he may have.
    [The prepared statement of Mr. Saxton can be found in the 
Appendix on page 33.]

   STATEMENT OF HON. MARTIN T. MEEHAN, A REPRESENTATIVE FROM 
   MASSACHUSETTS, RANKING MEMBER, TERRORISM, UNCONVENTIONAL 
             THREATS AND CAPABILITIES SUBCOMMITTEE

    Mr. Meehan. Thank you, Mr. Chairman. I want to join you in 
welcoming the witnesses today and associate myself with the 
chairman's remarks and provide a few of my own for emphasis.
    Mr. Chairman, as you know, I am keenly interested in our 
national security posture and philosophical approach to the 
Global War on Terror. Much of our work since 9/11 has been 
focused on the business of providing the best possible 
resources available.
    I would like to believe that this focus and the work of 
this committee has contributed to SOCOM's current capability, 
yet with the beginning of our 5th year in this struggle I have 
grown increasingly pessimistic about our overall philosophy.
    As the conflict continues to grow in duration, I am faced 
with the prospect that we might not be applying military 
resources in the most prudent and effective manner.
    As a nation, are we overly focused on the area of our 
operation in Iraq and Afghanistan? Do we overly favor the 
option of direct action at the expense of unconventional 
military techniques?
    Have we failed to accurately interpret the nature of this 
conflict? Does it call for a counterterrorism or 
counterinsurgency strategy? In essence, are we properly 
expanding the use of forces? These are just a few of the 
questions that have been put before this committee that are of 
concern.
    General Downing, you find yourself in fine company today. 
You are flanked by two of the great writers in the field of 
military theory. Yet because of your own experiences, you are 
obviously uniquely qualified to present testimony.
    And I am impressed with your experience not only in uniform 
but your experience since then on the staff of the National 
Security Council (NSC) and as an independent critic of SOCOM 
and Secretary Rumsfeld, and your present role, obviously, at 
West Point.
    So I hope the panelists can share their candid assessment 
of this and help us help the department to improve. And you 
know, I think this country deserves nothing less than that.
    Thank you, Mr. Chairman.
    Mr. Saxton. Thank you very much.
    General Downing, why don't you lead off and tell us what 
you think?

STATEMENT OF GEN. WAYNE A. DOWNING (RET.), CHAIRMAN, COMBATING 
     TERRORISM CENTER, U.S. MILITARY ACADEMY AT WEST POINT

    General Downing. Thank you, Mr. Chairman, and thank you and 
members for allowing me to come back in here. I don't get to 
come to these hearings very much anymore, and, unlike some 
military guys, we were always treated very well up here. So my 
experiences coming both here and to the other body were always 
generally very positive experiences, because we were created, 
as you know, by the Congress, and we were certainly well taken 
care of here. I see that continuing.
    I am reminded that I have been retired for 10 years, and 
the capability of U.S. Special Operations Command, which I left 
10 years ago, is exceedingly greater than it was in 1996. And 
certainly, their performance in this struggle over the last 
almost 5 years has really allowed them to develop and to hone 
their skill.
    I am also reminded that I left Joint Special Operations 
Command (JSOC) 15 years ago, and the JSOC capability is so far 
beyond what we had when we went out into the desert during the 
first Gulf War.
    The performance of the units has been outstanding, 
primarily focused in Afghanistan and Iraq. You are well aware 
of this. I think one of the things that we have got to remember 
is that this great performance has not come without cost to the 
command. We have got cost in materiel, aircraft, vehicles, 
weapons, radios.
    I think we ought to also remember that over 1,000 special 
operators have been killed or wounded since we started, a 
percentage and a rate which far exceeds that of the 
conventional forces. I think that is to be understood.
    The number of killed in action, I really don't know what 
that number is, except I certainly know it is north of 100 and 
perhaps even closer to 200.
    That is very troubling to me because it takes so long to 
train these special operators to make them effective. It takes 
about 18 months to get a special forces soldier through all of 
his training, his language training, and get him out to the 
field.
    It takes about the same kind of thing for a combat 
controller or for an Air Force para-rescue guy. Some of these 
crew members, for the 160th and for AFSOC take over a year to 
get them trained to go to the field.
    When you go to the special mission units, both the Army and 
the Navy special mission units, it takes 10 years to 15 years 
to get the kind of experience that you need to replace those. 
So we have a big gap that unfortunately--of money and 
resources--cannot fill.
    While we have done an outstanding job in our current 
operations, we must prepare for the future fight. I think we 
have got to possibly remind ourself that this is not a war that 
we are involved with. It is more on the order of a global 
counterinsurgency campaign.
    The objective is to drain the swamp, not kill all the 
alligators in the swamp. In some cases, we end up killing the 
alligators and they are replaced almost as fast as we can kill 
them or capture them.
    And so what we have got to look at is we have got to look 
at getting after causes of this insurgency. And this reminds us 
all that this is not a military struggle. This is a political, 
it is an economic, and it is a social struggle.
    The military has a role to play, but it is just a role. I 
would offer to you that the military cannot win this struggle, 
but they could lose it.
    And one of the things that I have seen over the last five 
years is the great difficulty in bringing the power of the 
United States government to bear on these problems. And this is 
tied up in our interagency process. There is a lot of 
competition. We have a lot of inability to bring this team 
together. And I think we really have to get after that.
    I think we have also got to remind ourself that this 
struggle is more than global manhunting. It is more than the 
direct action piece. It is more than combat, foreign internal 
defense and unconventional warfare.
    These are necessary activities in Iraq and Afghanistan, but 
they are not enough. I think sometimes we get mesmerized 
because of the skill and the daring of our special operators 
that do these jobs, and I think sometimes people think that 
that is all that is involved in the special operations forces' 
contribution to the struggle. It is not.
    We have got to get after the future base area. We have got 
to get after developing friends and allies and proxies. Because 
when you fight an insurgency, the best people to do this are 
the host country. They are not American forces.
    And that is one thing that special operations do, is they 
are a tremendous force multiplier, where, you know, 10 special 
forces soldiers can leverage 500 or maybe even 1,000 of the 
other.
    We are, I believe, expanding our Human Intelligence 
(HUMINT) operations, and I think this is totally appropriate 
because intelligence is so important in a counterinsurgency 
operation.
    I see great progress between the Pentagon and the 
intelligence community on flexible detailing of special 
operators into places like the CIA, where they can be used for 
Title 50 authorities rather than Title 10; very effective to 
get out and accomplish the job.
    U.S. SOCOM has been given a very, very difficult task. 
General Brown has been tasked with Unified Command Plan (UCP) 
2004 with being the synchronizer and the coordinator of this 
term Global War on Terror. And this is very, very difficult for 
him, because what he has been asked to do is counterculture.
    He has been asked to do things which, in the past, have 
been the purview of the joint staff. There has certainly been 
resentment in the geographical combatant commanders about his 
new roles and his ability to get out and synchronize and 
coordinate.
    Tampa, Florida, is a long way from Washington, D.C. Believe 
me, I remember that from my days here. And it is very, very 
difficult to think that you are going to synchronize and 
coordinate the Department of Defense's (DOD's) effort in this 
struggle and do it from Tampa, Florida, because where things 
get done and where things happen is in this town.
    So General Brown has been given a very, very tough mission. 
I think there is recognition of how tough it is in the 
Pentagon. I think they are trying to help them, but I don't 
think we should delude ourself that all these barriers that 
inhibit him have gone away.
    There is also a lot of overlap. Some overlap is always 
good, but you have got to question yourself how much overlap 
and how much duplication of effort is there going on between 
things like the Center for Special Operations down in Tampa, 
JSOC at Fort Bragg, the National Counter Terrorism Center 
(NCTC) up here in Washington and the Joint Staff. There is a 
lot of effort going on, and some rationalization probably ought 
to be applied to that.
    I think SOCOM needs a command element in D.C. If I could 
change the world, I would move the whole command up here. But 
that is very difficult, because real estate is at such a 
premium.
    But of course, this flies in the face of what is the role 
of the chairman of the Joint Chiefs of Staff and the services. 
And many of them see that as a threat to what they do if you 
move SOCOM up here.
    But yet for SOCOM to be given this mission of synchronize 
and coordinate, they have to be up here. So we have a dilemma 
here, and in my mind it is not solved.
    I would like to see more special operations forces flag 
officers in the global combatant commands and in the joint task 
forces, because they have very unique capabilities.
    I would also like to see more conventional units assigned 
to the joint special operations task forces. We have always 
been able to handle that. It is certainly a talent of our 
commanders that they enable this to happen.
    The fourth point I would like to make is on JSOC. One of 
the recommendations that myself and Mike Vickers made along 
with Bill Garrison in November when we did a quick look at this 
subject for Secretary Rumsfeld was we recommended that he 
enhance JSOC to a three-star command.
    We also recommended he be given four deputy commanders--two 
major generals and two brigadier generals--which would give 
that command the ability to field five joint special operations 
task forces.
    Right now, there are just three of them, and all three of 
those commanders have never been in the same room together 
because of their operations tempo (optempo). At least one of 
them has always been gone, and the only time they see each 
other together is on video teleconferences.
    I also recommended that JSOC report directly to the 
secretary of defense. Now, that was rejected. I understand why. 
But the thought was while SOCOM is going through this very, 
very difficult transition period to these new missions that 
they have been given, my feeling was that the JSOC could 
operate much faster and much more efficiently if you took out a 
command layer--in other words, let them go direct to the 
SECDEF.
    It would allow them to be very, very flexible, because one 
of the things that we found is that the staff processes in the 
Joint Chief of Staff (JCS), in Office of the Secretary of 
Defense (OSD) and in the interagency impede operations. The 
national command authority wants fast, responsive, flexible and 
innovative solutions to their problems in this Global War on 
Terror, but their staff system produces exactly the opposite.
    Things that should take days take weeks. Things that should 
take weeks take months. And some of the decisions that have to 
be made have to be made in hours, absolutely in hours.
    The other thing that I think command should look at, and 
that is lowering this wall between black and white SOF. That 
has always been a problem between the special mission units and 
the rest of special operations. I would judge that since the 
war those walls are higher than they were in 2001.
    There is some reasons for it, but one of the reasons that 
we proposed the five joint special operations task forces is 
that we would like to see the black and the white operate 
together under one commander. You can still have walls for 
security, but I just think we could get a better application of 
resources if we did that.
    The last point I would like to make is that there has been 
some great practices that have come out of Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF), and we need 
to benchmark those practices not only for the rest of special 
operations but for the entire military. These are the joint 
interagency task forces.
    I think General McCrystal's work in this area has just been 
exemplary, how he has brought all of these different elements 
of the United States government together, and they brought them 
together and they work very, very effectively together.
    This operation against Zarqawi is the epitome of it. That 
goes on not only in Iraq but it also goes on in Afghanistan. 
They have done that very, very well.
    Counternetwork operations task force--been developed. They 
work well. Transient screening facilities have worked well, and 
also joint reconnaissance task force have worked very well. 
Some very, very good things going on.
    Gentlemen, I obviously don't have the answer to a lot of 
the detailed questions. Members of the command can give you 
that. Certainly, General Brown can.
    I am very proud of these soldiers, sailors, airmen and now 
these Marines, and I think you should be too. They are doing a 
hell of a job.
    Thank you.
    Mr. Saxton. Thank you very much, General Downing.
    We are going to hear from Mike Vickers next, and then we 
will go over to Mr. Boot, and then we will have some questions.

STATEMENT OF MICHAEL G. VICKERS, DIRECTOR OF STRATEGIC STUDIES, 
         CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Vickers. Good morning, Mr. Chairman, members of the 
committee. Thank you for the opportunity to appear before you 
today to share my views with you on the missions and roles of 
the United States Special Operations Command.
    The 2006 Quadrennial Defense Review produced a number of 
important decisions with respect to Special Operations Forces 
operational capabilities, capacity and posture, a number of 
which were recommended by General Downing, Bill Garrison and 
myself in the report that General Downing mentioned.
    These capability and capacity expansions are absolutely 
essential. About 80 percent of our current force is tied up in 
Operations Enduring Freedom and Iraqi Freedom, and the basic 
intent over the longer term is not only to redeploy these 
forces but to have a more intense city-state effort for the 
Global War on Terror (GWOT) until this necessitated the SOF 
expansion.
    SOF will really be the main DOD instrument, not necessarily 
the main U.S. Government instrument in all cases, but main DOD 
instrument in the longer term Global War on Terror.
    A number of special operations units were increased by one-
third. Special forces battalions, ranger companies, classified 
special mission unit squadrons, psychological operations 
(PSYOPs) and civil affairs both in the active duty and Reserve 
component.
    A Marine Special Operations Command was stood up that will 
contribute to the foreign internal defense area as well as the 
direct action and special reconnaissance area. And investments 
were made in new capabilities in tagging, tracking, locating 
terrorists, in covered air mobility and in persistent air 
surveillance with the UAV squadron for Air Force Special 
Operations Command.
    These are all very, very good initiatives. I want to 
highlight, however, that while SOCOM is doing a very good job 
in facilitating this expansion with its new 18X program to 
attract additional special forces talent directly from civilian 
life, and increasing the institutional base, increasing the 
throughput of the special forces school, which has essentially 
doubled in the past couple of years.
    Retention is really critical, and incentives to retain the 
force that we have will be vital to its expansion as well as 
its continued quality.
    Since the terrorist attacks of September 11th, the planning 
capacity of the Department of Defense for the Global War on 
Terror has been significantly bolstered. As General Downing 
mentioned, SOCOM has stood up the Center for Special 
Operations.
    The Theater Special Operations Command has been 
significantly augmented to make them far more capable of 24/7 
long duration operations. And the command and staff elements of 
JSOC have likewise been strengthened for long duration 
operation.
    SOCOM has produced GWOT-related concept plans and 
operations plans, the 7,500 series, which were first rate. The 
Defense Department is currently in the process of identifying 
the resources needed to implement these plans.
    Mr. Saxton. Let me just interrupt just for a minute, just 
so everybody--here is the game plan. We have got a 15-minute 
vote, a 2-minute vote, and another 15-minute vote, so we can be 
here for another 10 minutes before we have to leave, and then 
we will be gone for about 20 minutes.
    Mr. Vickers. Okay.
    As General Downing noted, SOCOM has experienced some 
difficulty in fulfilling its role as the lead combatant command 
in two areas, in top-level integration and interagency planning 
process and in control of global SOF forces or other forces 
that may be placed under their command.
    As General Downing noted, the GWOT is an intelligence and 
special-operations-intensive war. SOCOM has made great strides 
in the intelligence arena since 9/11. Two advanced special 
operations training level three courses have been stood up, and 
they are producing a couple hundred graduates a year, which 
significantly expand our HUMINT capability.
    Making full use of authorities in the GWOT both in 
intelligence and operations, as General Downing noted, is 
critical, particularly the flexible detailing and exploitation 
of the CIA's Title 50 authority.
    Further, integrating our partners since this indirect 
approach and leveraging proxies and surrogates will be central 
to our operation through a global counterterrorism network and 
with appropriate communications is also vital.
    On the legislative side, given the importance of seasoned 
operators--and one of the things of the GWOT is it is very kind 
to 40-year-olds where some of the direct action missions 
weren't. It has placed a premium on the intelligence side.
    One of the things we might look at is providing SOF 
additional relief from the provisions of section 517 of Title 
10 of the U.S. Code which limits the number of E8 and E9 
soldiers in the force.
    The special mission units have received waivers in this 
area, but it is time to look at expanding this to white SOF as 
well, given the increasing role those senior soldiers are 
playing.
    Unconventional warfare is a vital GWOT instrument against 
both state and non-state actors, and SOCOM has made very good 
strides of late in this area to develop a global unconventional 
warfare plan. It needs to be properly resourced, however.
    The section 1208 authority which grants SOF the authority 
to conduct paramilitary operations or fund irregular forces 
needs to be expanded several fold over the program years to 
several hundred million dollars a year, up from its current 
level of $25 million or so.
    I fully concur with what General Downing said about black 
and white integration of SOF in the field under a single 
commander. It does seem like, in some cases, we are doing 
better in the field, but the general direction is not good.
    With that, I will conclude my statement.
    [The prepared statement of Mr. Vickers can be found in the 
Appendix on page 38.]
    Mr. Saxton. Thank you very much.
    Mr. Boot.

  STATEMENT OF MAX BOOT, SENIOR FELLOW FOR NATIONAL SECURITY 
             STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Boot. Thank you very much, Mr. Chairman, and thanks to 
the members of the subcommittee for inviting me to testify 
along with two men I hold in such high regard as Wayne Downing 
and Mike Vickers.
    I would like to begin by noting, as have my fellow 
analysts, that SOCOM is, in many ways, a very impressive 
organization. But I think it is also a very limited 
organization, and certainly not the organization that is going 
to win the Global War on Terror for us.
    In fact, SOCOM, I would suggest, as Congressman Meehan 
suggested in his opening statement, has become very focused on 
direct action, on rappelling out of helicopters, kicking down 
doors, taking out bad guys.
    Now, we need to do that, and that strategy can obviously 
pay off with some major dividends, as when we capture Saddam 
Hussein or kill Abu Musab al-Zarqawi.
    But I think we have seen in the aftermath of those major 
operations the limitations of that manhunter model of 
counterterrorism or counterinsurgency, because what we are 
still stuck with in Iraq and Afghanistan and elsewhere are very 
large, very decentralized insurgencies which are not going 
anywhere even if you take out a handful of the top leaders.
    Making real progress against Islamist terrorism is going to 
require accomplishing much more difficult and much less 
glamorous tasks such as establishing security, furthering 
economic and political development, and spreading the right 
information to win hears and minds among the uncommitted Muslim 
masses.
    Above all, it will require working with indigenous allies 
who must carry the bulk of the burden in this type of conflict. 
In other words, it will require more emphasis not on direct 
action but on unconventional warfare, foreign internal defense, 
PSYOPS, civil affairs, all of those other specialties which 
have been getting shortchanged by SOCOM.
    There is certainly a sense among the Army special forces 
community, among the Green Berets, that what they do is less 
appreciated and less valued, and less emphasis is put on it 
than it should be, in favor of these sexier Special Weapons and 
Tactics (SWAT)-style raids in which SOCOM has become so 
proficient.
    I got an e-mail a few weeks ago from one recently retired 
special forces colonel who wrote to me the current problem of 
SOCOM is that it is unbalanced. Most of the leadership and 
planning staff have come from the direct action (D.A.) side. 
They have no understanding of unconventional warfare (U.W.)
    Another more senior retired special forces officer e-mailed 
to me to complain of the total USSOCOM preoccupation with 
rating SOF orientation on special operations and absolutely 
none on low-intensity conflict.
    And similar concerns have shown up in print, for example, 
in Sean Naylor's article in Armed Forces Journal, ``More Than 
Door-Kickers,'' which quoted yet another retired special forces 
officer who warned that if we spend the rest of our lives 
capturing and killing terrorists at the expense of those 
special forces missions that are more important, gaining access 
to the local population, training indigenous forces, providing 
expertise and expanding capacity, then we are doomed to 
failure.
    When I hear such complaints coming from so many special 
forces veterans for whom I have such high respect, I take them 
very seriously. And obviously, the committee does as well, and 
I am glad to hear that.
    The question, of course, you are confronted with is well, 
what do you do about this. Is it possible to change SOCOM's 
orientation? I think given the way it is currently constituted, 
given its emphasis on kicking down doors, given where the bulk 
of its leadership has come from, I think it is very hard to 
have major changes within the current structure of SOCOM.
    For this reason, there is growing interest within U.S. Army 
special forces circles about creating a new joint 
unconventional warfare command within SOCOM which would 
basically be a U.W. equivalent to the Joint Special Operations 
Command which encompasses units like Delta Force and Seal Team 
6, and focuses on direct action missions.
    An unconventional warfare command could bring together Army 
special forces, civil affairs and PSYOPs by essentially 
expanding the role of the Army Special Operations Command at 
Fort Bragg. That strikes me as a pretty good idea.
    But I would also urge the committee to think outside of the 
current bureaucratic boundaries and think about possibly 
removing the unconventional warfare mission from SOCOM 
altogether.
    I would like to conclude my testimony with a very brief 
synopsis of an old idea for how this could be accomplished, by 
essentially resurrecting the Office of Strategic Services 
(OSS), which was created in 1942 to gather intelligence as well 
as to conduct low-intensity warfare behind enemy lines in 
occupied Europe and Asia.
    OSS was disbanded after World War II and, as you know, both 
the Green Berets and the CIA trace their lineage to this august 
ancestor. My proposal was to recreate OSS by bringing together 
under one roof not only Army special forces, civil affairs and 
PSYOPs, but also the CIA's paramilitary special activities 
division.
    This could be a joint civil military agency under the 
combined oversight of the secretary of defense and the director 
of national intelligence, like the Defense Intelligence Agency 
(DIA) or National Security Agency (NSA). It could bring 
together in one place all of the key skill sets needed to wage 
the softer side of the war on terrorism.
    Like SOCOM, it would have access to military personnel and 
assets, but like the CIA special activities division, its 
operations would contain a higher degree of covertness, 
flexibility and deniability than those carried out by the 
uniform military.
    One of the key advantages of an OSS redux is that it might 
be able to enhance our understanding of the societies in which 
terrorists operate. Such knowledge can be acquired in one of 
two ways, either by long-term immersion in foreign societies or 
by simply recruiting from the societies in which we fight.
    OSS II could facilitate both approaches in the first place 
by modifying the military's frenetic personnel rotation 
policies which make it almost impossible to acquire true area 
expertise, and in the second place by modifying our overly 
restrictive citizenship requirements, which currently limit 
military service to citizens or green card holders.
    The Green Berets recruited non-citizens in the 1950's when 
the Lodge Act allowed the enlistment of Eastern Europeans. 
Something similar should be tried today to recruit from Muslim 
societies around the world, starting with Muslim immigrant 
populations within the United States.
    I bet there would be plenty of high-quality recruits who 
would be willing to serve in return for one of the world's most 
precious commodities, U.S. citizenship. It might even make 
sense to stand up an entire brigade or even a division of 
foreign fighters led by American officers and Noncommissioned 
Officers (NCOs). Call it the Freedom Legion.
    OSS II would be a natural repository for such an outfit, 
considering the success the original OSS had in running 
indigenous forces such as the Burmese tribesmen who battled the 
Japanese in World War II.
    It is also possible that OSS could be a prime repository of 
nation-building expertise within the U.S. Government, which is 
a capacity that we desperately need to develop and for which we 
have paid a high price in Afghanistan and Iraq.
    Nation-building is an important part of counterinsurgency, 
because you have to provide a viable government to compete with 
the guerilla shadow government. This is not something we have 
done a very good job of doing. And again, this OSS-type agency 
could be tasked with developing a core of personnel who are 
skilled in those areas.
    Now, I realize the creation of a new OSS is a radical 
notion and it needs a good deal more study and discussion and 
debate. But if we are to be successful in the long war, we need 
to think outside of the traditional bureaucratic boxes, because 
the U.S. Government, as currently set up, and that includes 
SOCOM, simply is not adequately configured for the tasks ahead.
    Thank you very much.
    [The prepared statement of Mr. Boot can be found in the 
Appendix on page 43.]
    Mr. Saxton. Thank you. Thank you very much, Mr. Boot. That 
was a very stimulating and enlightening set of thoughts.
    We are going to go ahead and vote, and we have probably got 
about 5 minutes left in this vote, and that will give us time 
to get there, and we will be back in about 20 minutes.
    [Recess.]
    Mr. Saxton. General Downing, while I was gone, I thought 
about talking with Bill Young about moving SOCOM headquarters 
to Washington. I decided otherwise. [Laughter.]
    I had a few minutes to think about the testimony that we 
heard, and it is very encouraging testimony in this respect.
    Military and political leaders have always known that the 
threat constantly changes, and therefore our capabilities to 
meet the threat have to constantly change as well. It goes 
without saying. It is a very basic principle.
    And in the case of the Global War on Terror, that is as 
true today as it has ever been. And we found out that we had 
some weaknesses in the 1980's, and in 1987 we took some steps 
to try to change to face that threat.
    We found out the threat changed again in the--maybe it 
didn't change again, but it manifested itself in the early 
1990's, and we recognized that the conventional force was less 
capable of dealing with it and the Special Operations Command 
was more capable of dealing with it.
    And recently, as I flew from Balad to Baghdad, after 
hearing briefings about the oil flow, the electricity, and on 
that helicopter flight, I looked down at Iraqis with hoes and 
rakes and picks, and no tractors, I recognized that there was 
not only work to be done in the oil sector and in the 
electrical sector, utility sector, but in the agricultural 
sector as well.
    And when we got back to Baghdad and had a chance to talk 
with the U.S. ambassador, I realized as I sat in, I don't know, 
over 100 degrees of heat and watched them elect their first 
speaker, and was introduced to some number of their 
parliamentarians, I recognized that the State Department had a 
lot of work to do.
    And I came back to this country and talked to General 
Vines, who had just come back, and I said how are we doing. He 
said, well, the military was doing okay. But he said in the 
other sectors, we are not doing as well--not doing very well, 
maybe he said.
    Actually, he was more graphic than that. He said some 
things, though, that led me to believe that the way that we are 
meeting the threat today in Iraq, even though we have tried to 
change to meet it better, is not very good.
    One of the changes that we recognized is that people who 
were there on the ground before me, before I was, before I had 
these thoughts that I just expressed to you, we recognized that 
there was a need for better coordination among agencies and 
gave General Brown the job of synchronizing the activities 
involved in the Global War on Terror.
    So we are trying to make the changes that are necessary to 
better enable us to meet the threat and solve the problems of 
the Global War on Terror. And so within that context, all of 
your testimony is very welcome, and your ideas are very, very 
welcome.
    And we want to help make that happen, of course, in 
conjunction with the people who are currently in SOCOM, and the 
military leadership at the Pentagon as well.
    Let me just ask this. If you had a blank sheet of paper--
no, let's start where we are now. If you had your wish list, 
what are the three or four things in order to meet this threat 
that you would do differently?
    Mr. Boot, you testified last. Why don't you take a stab at 
that first?
    Mr. Boot. Well, I think the big thing upon which there is 
wide agreement is the need to have better human intelligence, 
better knowledge of foreign cultures and languages and 
societies. The question upon which it is very difficult to find 
an answer is how do you achieve that.
    I mean, we all talk about let's do more language training, 
let's do more of this and that, but is that really going to 
achieve the goals that we need to achieve?
    And I think the problem is that given the current 
bureaucratic structures it is very, very hard to do that. 
Structures such as the personnel rotation policies, where even 
in specialized units like the Army Special Forces, you have 
officers who have to rotate in and out for various career 
development reasons, where they have to spend a little time in 
the field, a little time in staff jobs, schools, et cetera, et 
cetera.
    And it makes it very hard to maintain that kind of very 
deep knowledge of one specific area where you might wind up 
operating, and the same problem exists in the State Department, 
in the CIA and elsewhere in the government, because all of our 
personnel policies, which I think are really in some ways at 
the root of the problem here, are designed for rotation and to 
create well-rounded individuals, essentially, well-rounded 
officers, well-rounded State Department officers, well-rounded 
CIA officers.
    And that is a commendable goal, and we need those well-
rounded people, but what it means it that we don't really have 
the people who are the world's living top experts on places 
like Waziristan or Anbar Province or wherever our forces may be 
operating.
    And I think what we need to do is basically create 
exceptions within our current system. We need to carve out some 
people who are not going to be generalists, some people who are 
not going to be rotating, some people who are not going to be 
on the fast track to the top, but who can stay in one place or 
one area for decades at a time and gain the kind of knowledge 
that the Brits--and the Brits did this so well in the 19th 
century, when they had people like T.E. Lawrence and Richard 
Francis Burton, and Gertrude Bell and others who were these 
kind of eccentric characters but who were incredible 
repositories of information on the very areas of the world 
where the British Empire was operating.
    And we need those same kind of people, too. They exist, and 
there are Americans who fit these categories, and I meet them 
whenever I go around the world.
    No matter how terrible the place, you always find American 
expats who are living there, except they are usually working as 
aid workers, or journalists or some other capacity in the 
private sector. They are not working for the U.S. Government. 
And we need to harness those kinds of people for the U.S. 
Government.
    And so my idea for creating an OSS is just one thought I 
threw out there, and perhaps a clumsy one, for how do you kind 
of create this carve-out, this set-aside, from the cookie-
cutter personnel policies that govern most of the military and 
most of the other government agencies, so you can create this 
kind of true expertise that we can draw upon and build the kind 
of personal relationships we really need in order to pacify 
some of these troubled areas that give rise to terrorism.
    Mr. Saxton. General Downing.
    General Downing. I would say, and it re-emphasizes 
something I said in my opening remarks, we need an interagency 
process that works. I don't know, Mr. Chairman, if you can 
legislate something like that. But certainly, the executive 
branch has to come up with it. It doesn't work here.
    It works better in the field, but it always does, because 
when you get out in the field you have people trying to solve 
their own problems and realizing they have to work together.
    One of the things that is just killing us, beyond the 
Washington problem, is when you get to the field the other 
parts of the United States government are not there. In other 
words, you don't have the kind of expertise from the State 
Department that you need throughout the area.
    I was in Al Anbar Province, I guess, five times in the last 
couple of years, and they had a Political Advisor (POLAD) out 
there, a foreign service officer, that had been out there 
almost two years. I think he was on his third or fourth Marine 
commander.
    And this guy knew that province inside and out. I mean, he 
knew every tribe. He knew the leaders. He knew how things fit 
together. But you know, he is kind of a one man. Where are the 
rest of the 18 provinces? You know, how are they covered? There 
is a few of those.
    You see the same thing out in Afghanistan. I was in Oruzgan 
Province in February, talked to the province reconstruction 
team, asked them--you know, they have had some FBI people. They 
were doing well. Asked them what they needed, and the head of 
the province reconstruction team, female Military Police (M.P.) 
officer who was a Russian foreign area officer specialist, very 
impressive woman, said the thing they really needed were their 
two Department of Agriculture people who left last summer.
    And I said, why? They said because they really added value 
to what they were trying to do, and the Afghans trusted them, 
and they were really making some headway. I said, well, why did 
they leave? They left because the Department of Agriculture 
didn't have enough money to go ahead and extend their 
contracts.
    So we have got to bring the interagency into the fight. I 
think there is a lot of duplication of effort between the 
Center for Special Operations (CSO), the National Counter-
Proliferation Center (NCPC) and JSOC. I really think that we 
probably need to either move the CSO to JSOC or move it to the 
CTC. I think we would get more out of it.
    My JSOC comment about the SECDEF, I think that would do it. 
And then these five JSODAs that bring black and white together 
is the way I would go. During your vote, two of us talked. We 
talked with some subject matter experts here in the room.
    There is also another good case to do OSS II, as Max 
presents, or as Mike and I have talked about some kind of a 
JTF, but something that brings this together, that gets this 
direct action world and this UW/FID world and all the HUMINT 
operations tied together so they support each other.
    A lot of distrust there, and we are not getting optimal 
results.
    Mr. Saxton. Mr. Vickers.
    Mr. Vickers. I think we are on a pretty good path right now 
for this long war. I think there are a couple shortfalls that 
if I could be king for a day I would work on resolving. The big 
one is really how the U.S. Government implements GWOT strategy 
and integrates elements of national power.
    The NCTC is really more of a roles assigner and monitoring 
organization, to create integrated effects between agency, 
military, war of ideas, financial interdiction.
    We really don't have that kind of thing either globally in 
Washington. And as General Downing said, there is a lot of 
duplication, but we really don't have the national level, other 
than setting broad strategic policy, that is actually 
monitoring global operations and integrating them.
    So I think we have a ways to go on U.S. Government 
organization, interagency organization. I would underscore 
several of the things General Downing said in that area.
    Related to that is still some work in organizational 
capabilities. I think DOD is well on its way. They need to do a 
better job in languages and a few things, but made big strides 
in the past few years.
    And if we continue on this path and resource it--and SOCOM 
will require significantly more resources to implement this 
plan. It will probably require another 50 percent increase in 
their budget or so over the program period. But they are well 
on their way.
    I think the CIA is well on its way toward transforming from 
a Cold War force to a GWOT force. Now, they have got a very 
young workforce right now, and that is a problem, because you 
have to season these folks.
    I think that is less true in the other areas of the 
government in terms of war of ideas or in terms of an 
expeditionary foreign service. We have a ways to go in that 
area and creating the capabilities that we will need to do the 
fight.
    Mr. Saxton. Thank you.
    Mr. Larsen, feel free to jump in here at any time. But I 
just want to advance one set of ideas based on something that 
happened very recently.
    Yesterday, General Eikenberry was here, and in his 
testimony he talked about the reorganization or re-emergence of 
the Taliban. So there continue to be security issues, and our 
Operational Detachment Alpha (ODAs) seem to be doing a pretty 
good job leveraging indigenous forces against the Taliban. So 
we are working that angle.
    When he was asked what is your biggest need in Afghanistan, 
he said $50 million for roads. And so we pursued that, and it 
once again emphasized to me the need for interagency 
cooperation and international cooperation.
    So General Eikenberry turned to the State Department 
representative who was there and said tell the congressman how 
we are doing with the international effort. So the U.S. agency 
called the State Department is now working an international set 
of issues trying to get together $50 million to build that big 
loop that we need and other things.
    And then we got to talking about what else do you need. He 
said well, we need more activities about people who can make it 
profitable for Afghans to grow something besides poppies. And 
so there is a need for that kind of expertise as well.
    And of course, to know more about all of that and the 
indigenous problems, we need intel. And so both in Iraq and 
Afghanistan we see that our military guys are there doing what 
they are trained to do, doing a good job, and have identified 
different sets of needs in the two countries, but a variety of 
different kinds of needs that we are not geared to meet, 
effectively, at least.
    So with that, let me just go to Mr. Larsen.
    Mr. Larsen. Sure, and really bouncing off of that 
statement, I think a very general assessment--and obviously we 
can get into details--a general assessment is the PRTs tend to 
be working better in Afghanistan, generally, than they are in 
Iraq. And this is a fundamental critique that General McCaffrey 
brought back from his recent trips to both countries as well.
    And I was wondering if, maybe starting with you, General 
Downing, you can help us, perhaps with focus a little bit on 
our subject matter today, but can you help us understand why 
there is a general difference between, again, the relative 
success of the PRTs in Afghanistan and Iraq?
    General Downing. Sir, I would say it is directly related to 
the security situation. I think in Afghanistan we are able to 
put them out. They are able to, you know, depending upon local 
conditions, travel. But I think generally in Afghanistan the 
security situation is better.
    Some of the places in Iraq are just too dangerous to put 
them out. And of course, we made a decision to live out of 
bases, which means we get concentrated, and we are also, when 
we are in those bases, completely cut off from contact with the 
Iraqi people.
    That, added to our sunglasses, our body armor and our 
helmets, kind of create, you know, a formidable presence that 
oftentimes isn't conducive to getting the people-to-people kind 
of relationships. I think it is directly related to security.
    Mr. Larsen. Yes.
    Mr. Vickers, Mr. Boot, anything to add?
    Mr. Vickers. I would agree totally. And the security 
situation is a function of the unsettled politics. The Afghan 
people were weary of 25 years of war. The political process 
worked really well after Kabul fell and installing a government 
right away, and so you had better initial conditions.
    Now, there have been, you know, some resurgence of the 
Taliban, but it is still a very, very different situation than 
Iraq, where lots of things are still unsettled. And so 
expecting, you know, sort of the PRTs to be the savior, you 
know, it is going to take time for that to work.
    The Iraqis are going to have to establish some measure of 
security, and then we will be able to work on the development 
side.
    Mr. Boot. I will just pick up on the points that were just 
made. I think absolutely we need more security right now in 
Iraq, before you can have more development, and I think more 
security will probably require more troops, at least in a place 
like Baghdad where I think there is a real security crisis 
going on right now.
    But to pick up on a point that General Downing made, which 
I completely agree, because I was struck by this as I traveled 
around Afghanistan and Iraq in the last few months, is the 
extent to which we are walling ourselves off from the 
indigenous population on these giant bases, where you go to 
places like our logistics support area, Anaconda, up near 
Balad, or Camp Victory at Baghdad. I am sure you have all been 
to these places. They are gigantic, tens of thousands of 
people, and you could just as easily be at Fort Hood, Texas. 
There is almost no way of knowing that you are actually in a 
foreign country.
    And most of the personnel we have in those countries spend 
most of their time on those bases where I think anybody like 
Mike Vickers or General Downing who has been engaged out in the 
field will tell you you have got to be out in the field.
    You have got to be interacting with the civilian population 
in order to have success in a counterinsurgency. And very few 
of our forces do that, for a variety of logistical and force 
protection reasons.
    So much of our effort basically is going to sustain these 
giant bases, not necessarily to actually fight and win the 
counterinsurgency, which is the reason why those bases are 
there in the first place.
    And I think, just to pick up on another point that was 
briefly mentioned in terms of the interagency process, I think 
one of the real gaps that we are missing is an agency that 
specifically focuses on nation-building. because you see what 
we had to do in the case of Iraq.
    And a lot of the reason why we have the current problems in 
Iraq is we didn't have an institution that would come in and 
run a place like Iraq. The Administration created the ORHA from 
scratch two months before the invasion in 2003 and then created 
CPA from scratch in the middle of the war.
    And neither of those organizations functioned very well, 
and we don't have this natural repository within the government 
of skill in nation-building.
    A lot of it falls to the military because they are the guys 
on the spot, but they are not trained in it, and they often 
don't want to do it. They have to do it, but they wish there 
would be somebody who could come in with the skill set to do 
that.
    And the skills do exist in places like the Department of 
Agriculture and State and Treasury, and in the civilian sector 
and various other places. But there is no organization that 
knits those skills together so that in peace time, so we are 
ready when a war breaks out or when a country disintegrates to 
come in and run these things.
    And I think that is one of the big organizational gaps that 
we have to fill.
    Mr. Larsen. So working backwards from that, or maybe 
getting more particulars, especially with the subject of this 
particular hearing, in Iraq what role does SOF play, say, in 
Iraq to get us to that point where there can be something more 
like an Afghanistan PRT team on the ground as opposed to what 
we are doing right now?
    General Downing. Well, of course, you have got the one 
special operations force which is doing the manhunt, direct 
action stuff. We all know about them, and they get, you know, 
the majority of the press and the publicity.
    The other part of special operations, though, are actually 
working and training with the indigenous battalions, generally 
the special battalions, special police commandos, Iraqi special 
forces.
    And then there is a significant endeavor with our regular 
special operations forces on human intelligence operations, 
which have been quite successful, which have benefitted not 
only the U.S. forces but have also benefitted the Iraqi forces.
    In my judgment, those are exactly the kind of activities 
that we want them to do. In other words, we want to get more 
into the unconventional warfare and more into the foreign 
internal defense missions, and I think they are doing that.
    While I don't have the details of this, I understand that 
there are frictions on the ground between the special 
operations forces and the conventional units, the conventional 
units wanting the special operations guys to live and act and 
behave more like they do.
    And that has always been a problem. We used to have a 
problem in Vietnam with that, although we keep the special 
forces teams very separate. A lot of conventional commanders 
didn't like their lack of haircuts or, you know, maybe the way 
they wore their knives and their weapons. These are small 
things.
    We had this problem in Haiti when we went down there in 
1994, but these little irritants sometimes impede operations. I 
can remember in Afghanistan--and we have got several 
Afghanistan veterans here; special forces tell these stories 
better than I can--that, you know, they pretty much went 
indigenous, grew their hair and their beards and everything.
    You know, after a few months some of these guys with their 
hair growth looked like hajis. I mean, you couldn't tell them 
from another haji. But they showed up back at an American base 
camp, and the first thing a conventional commander told them 
was to get cleaned up.
    Well, they weren't doing that just because they wanted to 
look different. They were doing that because it fit in with the 
people that they were working with, and you don't want to stand 
out. And so they were doing the kind of things that you do in 
an unconventional warfare mission. These are the kind of things 
that really bite us.
    But I think they are doing what we want them to do in Iraq. 
The problem is that there is not enough of them. And you know, 
that is probably the only U.S. troops I would like to see more 
of.
    I don't know what Max meant about more troops for security. 
I don't want to see another American soldier go to Iraq, not 
that I am worried about casualties and these kind of things--of 
course, I am. I think the key to Iraq, and the key to every 
country that we are involved in this struggle with, is the host 
country.
    And I think what we have got to do, and what we have done 
very successfully, is build the host country forces. Now, in 
Iraq, of course, we have got to build a civilian ministry that 
is going to run those.
    That is where the effort--I don't want to see any more U.S. 
forces go in there, because I think the U.S. forces are 
marginally effective. I mean, they are great. They are doing 
great things. But their presence inflames the Iraqis. There is 
just no other way to say it. You know?
    In general, a U.S. patrol going through a street angers 
them, and I think we need to get more Iraqis on the street.
    Mr. Larsen. You know, we may have an opportunity to talk to 
special operations folks and chat with them about their 
experience in some of these conflicts.
    Mr. Vickers.
    Mr. Vickers. Well, I would strongly add my concurrence to 
that last point about Iraq strategy going forward. And we have 
shared this testimony with some high-level consumers recently.
    On special forces, I agree with everything General Downing 
said. The one piece that we might add: The biggest bang for the 
buck we are getting with SOF in Iraq right now is with the 
direct action forces, the manhunting and JSOC, with the special 
forces working with the special units, the Iraqi special 
operations brigade and the special police counterpart, and then 
the intelligence stuff that General Downing mentioned.
    And it is hard to do better than we are doing that stuff 
right now. There is probably 4.5 special forces companies 
there, or a little more than--about two-thirds of our effort, 
that there is this friction with the conventional forces.
    They are probably not being as optimally utilized in some 
of these badland areas where they might work with the Iraqis to 
bring some security where development could go.
    One way to resolve that potentially is to give them an area 
of operation, give them an area in Iraq and say you know, 
senior SOF commander, this is your area, and as General Downing 
suggested, you may have some conventional forces in support of 
you, but give them a little more freedom of action.
    And again, that is just a thought. You know, I don't want 
to tell commanders over there how to do their business. And so 
it is one way, you know, potentially, we might get a little 
mileage out of a portion of the force.
    But Iraq is going to be a protracted conflict, and it is 
going to be won by the locals, as General Downing said.
    Mr. Larsen. Can I just continue?
    And just to clarify, Mr. Vickers, that is your personal 
assessment on that.
    Mr. Vickers. Yes, that is my personal assessment.
    Mr. Larsen. Okay.
    The next question I have sort of gets beyond Iraq and 
Afghanistan and has to get us thinking about other places. Of 
course, a lot of our attention is focused on Iraq and 
Afghanistan, and certainly that is what we read about. But 
there are other places: Djibouti, Horn of Africa, the Sahel, 
Philippines.
    Two things: What are your personal assessments about how 
special forces are doing there in the tasks that we have asked 
them to do?
    And second, that begs the question, where are we going to 
engage down the road? I will just ask it generally and----
    General Downing. Well, you hit the areas. And, Mr. 
Congressman, you are obviously very well informed on that. And 
we are seeing right now what is happening in Somalia, because, 
you know, that kind of answers part of your question. There is 
stuff that is going on now that we have tried to mount 
operations against and we have not.
    It is not the military's particular job. It is another 
government agency that has to. But of course, the military has 
to perform that. In my opening comments, I said we need to get 
ready for the future war, and that is exactly what I was 
talking about.
    There are just very few precious assets left to go around 
the rest of the world, but yet this is where the new fight is, 
and this is where we have got to go to develop these proxies, 
these partners.
    But once again, this is going to have to be done under a 
broader umbrella than the military, and you are really talking 
about, in these countries, the country teams, headed by the 
country teams under which those military elements will be 
working.
    And so they have got to have a comprehensive political, 
social, economic program that is going to fight these 
insurgencies. One of the things that is very troubling is in 
many of these countries they are going to have to undergo 
profound political change within those countries if we are to 
dry up the causes that people are joining this insurgency.
    I mean, you know, you can just look at where these people 
are coming from, and when you interrogate these people, these 
are not poor, ignorant peasants. These, in many cases, are 
well-educated, middle-class, wealthy and psychologically 
stable. These are not psychopaths.
    They are electing to join this movement because they are 
disenfranchised citizens of whatever states they come from. And 
so this has to be addressed if we are going to make progress. 
And of course, that is like watching paint dry. It is going to 
take a long time.
    But that is what we have got to get ginned up for if we are 
going to be successful.
    Mr. Boot. If I could just--I think there is a big 
distinction between the kind of conflicts you mentioned in your 
second question and what you were talking about in the first 
one, which was really Iraq and Afghanistan, because I think 
when you look at places like the Horn of Africa or Northern 
Africa or the Pankisi Gorge, or the Philippines, or all these 
other places, those, to my mind, those are really SOF wars.
    Those are the places where you are going to have special 
forces on the front lines. And I think they are doing a 
tremendous job of these kinds of foreign internal defense and 
unconventional warfare missions, very small units operating 
very low profile, and basically trying to manage these 
situations, so we don't wind up in a situation like Iraq, where 
you have 130,000 troops occupying the country.
    Your ideal of counterinsurgency is the opposite. In fact, 
what we did in El Salvador in the 1980's, when you had 55 
special forces advisers, and you can argue that they achieved 
more than 500,000 troops did in Vietnam. I mean, in some ways, 
that is the ideal if you can achieve it.
    But Afghanistan and especially Iraq are in a somewhat 
different category, because we didn't pursue the kind of low-
intensity strategy, and probably for good reasons. I am not 
sure the low-intensity strategy would have necessarily worked 
in Iraq.
    But so we go in there, we destroy their existing 
government, we disband their existing army and security 
structure, and then you can't say okay, then we are going to 
send 55 special forces trainers to recreate the army and the 
police forces in Iraq and restore order. That is not going to 
work.
    You need a bigger presence. And in general, I am very much 
in sympathy with the outlook of General Downing and Mike 
Vickers, as I understand it, basically, which is more is less, 
and concentrate on the special forces, don't have a big 
conventional footprint.
    I think a lot of what we do with the conventional footprint 
is counterproductive. A lot of it is basically a self-licking 
ice cream cone, where the resources are going to sustain the 
bases that we operate instead of actually fighting the 
insurgency, as I suggested earlier.
    But nevertheless, I think that when we come in and totally 
take over a country with over 100,000 troops, we do have some 
responsibility to restore law and order.
    And I think in the case of Baghdad, for example, right now, 
where we have three combat battalions operating within Baghdad, 
fewer than 10,000 troops, that is just not going to be enough, 
given the rate at which it takes to stand up Iraqi army and 
security forces which will be able to go into the fight.
    So I think you can't have 100 percent hard and fast 
principles that you abide by in every single case. I think 99 
times out of 100, you do want to go the low-intensity route. 
You do want to favor special forces. You do want to put them on 
the front lines and keep conventional forces as far back as 
possible.
    But when you have invaded a country and taken it over, I 
think that is a different set of circumstances, where you have 
to deal with that situation as it develops.
    Mr. Saxton. Let me--go ahead, I am sorry.
    Mr. Vickers. Just quickly on the--I think the future of the 
long war or Global War on Terror will predominantly be 
persistent operations in countries with which the U.S. is not 
at war, leveraging locals.
    And so as we redeploy forces and take on this additional 
capacity that the Quadrennial Defense Review (QDR) and the 
program budget decisions will create, we will probably have 
somewhere on the order of 80 ODAs to 90 ODAs deployed in 20 
priority countries, and they may change, but they will span 
continents, and then 40 or so other countries.
    And so the key will be to have a distributed global 
presence where we are working with lots of locals to suppress 
this global insurgency down to very low levels.
    And so if we are successful--and, you know, we may not 
always be successful--rather than sort of what is the next hot 
spot, it will really be how are we driving this global threat 
down to lower levels across regions, South Asia, Central Asia, 
Trans-Caucuses, Sub-Saharan Africa, et cetera.
    Mr. Saxton. Let me change the subject slightly. The 
Administration and Congress jointly made the decision over the 
last several years to increase the number of folks in SOCOM. 
And in so doing, when this idea first came up, the first 
question that we had--I can remember asking it the first time 
out in Coronado--how do we do this?
    And the answer was painstakingly carefully, because we have 
got to have a quality of person and a quality training program 
that gets us to where we need to be. We are in the process of 
this expansion. My question is how is it working.
    General Downing. I will take a first crack at it. I think 
it is working unevenly, by different elements, which you would 
expect it would. I think the special forces that started this 
X-ray program which takes people in off the street--and which 
we haven't done since the 1970's. And I think we have got over 
300 of these now in the force, of these men, and I understand 
that they are performing extremely well. So that has worked 
very, very well.
    The Sea Air Land (SEALs), I mean, traditionally--and it has 
not changed, to my knowledge, very much since 9/11--about 22 
percent, 23 percent of the enlisted men and about 78 percent of 
the officers make it through Basic Underwater/Demolition 
Training (BUDs). I mean, that has historically been the rate, 
and they have tried everything you can think of to try to get 
that rate up.
    Mr. Saxton. Have the number of trainers in BUDs increased?
    General Downing. I can't answer that, Mr. Chairman. I know 
somebody from the command could, so that has been difficult. 
The air crews, they have been able to do that. They have been 
able to keep that up. I think that they are going to have 
enough crews to be able to man the additional aircraft that you 
funded.
    The Rangers, you know, basically, those are entry-level 
soldiers that come in and get screened and go. I know one of 
the things that we recommended in our report to the SECDEF was 
they add another two Ranger battalions. They would be helpful 
for the force structure, for the actual fighting now.
    But the main reason we recommended they add about 1,000 
more Rangers to the force structure is the Rangers become the 
prime source of candidates after 3 years or 4 years in the 
Rangers to go in to regular Army special forces and into the 
Delta force.
    And so what it does is it gives you a better pool to draw 
from, or it gives you a larger pool, so that you could build 
those forces. Once again, it takes time.
    The Delta force is probably 70 percent Rangers who have 
come out of either a Ranger special forces track or directly 
from a Ranger regiment to Delta.
    Mr. Saxton. How does the Marine Special Operations Command 
(MARSOC) look to you?
    General Downing. I understand that the MARSOC is building 
well, and I have not talked with Denny Hejlik for, oh, probably 
six months, but you know, my take is that that is going well.
    And I am not involved in any of the, of course, visceral 
issues that were attendant to bringing the MARSOC on, but I 
think the MARSOC is a good idea, and I think SOCOM is going to 
be able to make good use of those Marines.
    Mr. Saxton. This expansion program to me seems to be very 
important, but as was said to me when the subject was new to 
me, certainly you do it very carefully.
    Do you have any comments to make, Mr. Boot, Mr. Vickers?
    Mr. Vickers. Yes. I would just underscore a couple of 
points there, that you need a multifaceted approach to this.
    One is things that aren't obvious at first light, like the 
Rangers, in addition to their very valuable operational role, 
really being seed corn for the rest of the force, and so if you 
can grow that portion, then you can potentially grow the 
others, and having these things in balance.
    The 18X program was a very good initiative. That is how I 
came into the force in the 1970's. They didn't call it that--or 
early 1970's, but it is the same basic idea. And so you are 
able to attract some characters that you might not get into the 
Army other ways.
    The retention and incentive programs to retain the force we 
have--and some of the initiatives that General Downing talked 
about, and one that I did--one on the officer side, that you 
see that if this is main effort and our main war, that SOF 
officers then can compete for Geographic Combatant Command 
(GCC) positions and senior level commands will help with 
retention and motivation.
    And then the senior enlisted programs, which we are 
starting to make some progress on as well.
    So really, attention to all this, and going about it 
reasonably gradually, which I think the department is on that 
path. Where we have gotten in trouble before, like in Vietnam, 
where we have done rapid expansions in shorter periods of time, 
quality goes down.
    They don't look like they are headed on that reckless a 
path right now. But this is a daunting problem; same thing with 
expanding the CIA. I mean, it is just very, very hard to do 
without sacrificing quality.
    Mr. Boot. I think one of the dangers involved here is that 
you may further put even greater emphasis on direct action as a 
result of this expansion than even exists today within SOCOM, 
because, hard as it is to train men to become Seals or Delta 
Force or some of these other elite special mission units, I 
think it is even harder to train long-term type of cultural 
skills and abilities that you need for special forces.
    And in fact, I was talking to somebody in the audience here 
earlier, and he was saying well, you know, you can train 
commandos, but in terms of special forces you really have to 
educate them.
    It is not training. It is a long-term process of educating 
and seasoning them in the field, where the skills are not--I 
mean, you can quantify these basic military skills of the Seals 
in the underwater demolition course or, you know, shoot houses 
or whatever. I mean, you know what the standards are.
    But it is much more difficult to quantify the standards 
that you need for people in special forces, because a lot of 
what you need is basically the ability to manipulate people, to 
interact with foreigners, all these kinds of skills which are 
very hard to put a hard and fast rule on and say that, you 
know, we have reached this standard, and we are going to have 
that standard, and we have X number of people at that standard.
    It is very hard to do, and so I think there is a real 
danger that as you expand out, what you are going to expand is 
the number of basic people who are skilled, you know, shooters 
and paratroopers and all the rest of it, but not necessarily 
the skills that I think in some ways are the most important in 
the war on terrorism with the softer side of the cultural 
knowledge and the intelligence and all the rest of it.
    And I think one way to counteract some of that is, as I 
suggested before, the absolute imperative to recruit 
foreigners, to not limit our recruiting to people who are 
American citizens or green card holders.
    I mean, I was talking to General Downing during the break, 
and he was recounting how under the Lodge Act in the 1950's, I 
mean, you had entire A-teams who spoke nothing but Czech or 
Hungarian or some other language from Eastern Europe.
    I mean, wouldn't it be pretty amazing if we had entire A-
teams today where the members spoke nothing but Arabic or 
Pashto? I mean, these are exactly the kind of skills that we 
need. And it is very, very difficult to get it by taking kind 
of white-bread Americans and training them up to infiltrate 
these foreign societies.
    I mean, you can do some of that, and we need to do some of 
that, but much more so we need to recruit from within those 
societies so that we are not just getting these kind of direct 
action skills, but we are also getting the kind of cultural and 
softer side skills that I think are ultimately going to be more 
important.
    Mr. Saxton. Interesting idea.
    Mr. Vickers, we are now going to go to Mr. Kline.
    Mr. Vickers. If I can just add one point on that, there is 
also a reciprocal relationship that is important on the UW 
direct action side as well, that with the exception of the 
surgical special mission units, some of the commando stuff 
tends to be a young man's game.
    And you know, at some point the body just can't carry the 
150 pounds anymore, you know, and so you reach your mid 30's 
and you can't keep up as well. That is not true for 
Unconventional Warfare (UW)/Foreign Internal Defense (FID), and 
for intelligence collection missions, which are dominant 
missions to the GWOT.
    And so part of the challenge here is also to retain, if I 
may say it as well, some of the old geezers, the 40-year-olds, 
who perform extremely valuable things but can't necessarily do 
the knife-in-the-teeth stuff anymore. You know, they have 
passed that point.
    And they will help us a lot with the GWOT, and we need to 
have a personnel system that lets us do that.
    Mr. Saxton. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. I apologize for being 
a little tardy coming back after the votes, so I missed a 
little bit of the discussion, and I caught the tail end of the 
answer to Mr. Larsen's question. I will try not to be too 
duplicative, whatever that word is.
    We have had some pretty interesting recommendations from 
Mr. Boot concerning perhaps a new organization and recruiting 
only foreign language speakers. And that is interesting. I am 
not sure if I buy onto the idea of bringing people into our 
Special Operations Command who speak only Arabic. But it is an 
interesting notion.
    I did notice, Mr. Vickers, that you recommended that we in 
Congress look at section 517, which is limiting the numbers of 
E8s and E9s.
    In that vein, could you give us, you know, an example like 
that--it is open to any of you--of some specifics where you see 
a problem, perhaps because of the expansion or for any other 
reason, where we ought to be looking at making a change to make 
the Special Operations Command work better?
    Mr. Vickers. Yes. It really gets into the idea of can you 
be a specialist longer. And the special mission units have more 
exemptions and deal with this better, so, for example, you 
know, as you move up the ranks you have to have broader and 
broader command.
    And so typically, an E8--or certainly when you get to E9, 
even in the special mission units, you need to move out and 
take on broader command. But they are able to use E8s as 
snipers or small unit team leaders that is very, very different 
from the rest of the Army. And it is a very, very valuable 
thing to capture all that experience.
    That then descends as you move down into the other elements 
of the special operations community, that you lose the ability 
to have operators as E9s, for example.
    Mr. Kline. Right. No, I understand. I understand your 
recommendation on 517. What I am asking is do you have other 
recommendations.
    Mr. Vickers. In this area on personnel, or----
    Mr. Kline. Or anything. You came to us with a 
recommendation, I thought--I wrote it down as one--that we 
ought to look at section 517, which currently limits the 
numbers of E8s and E9s, and we ought to look at changing that.
    Mr. Vickers. Yes.
    Mr. Kline. I agree with you. I think that is great. Now 
what I am asking is----
    Mr. Vickers. I got it.
    Mr. Kline [continuing]. Do you have another one?
    Mr. Vickers. Yes. Another one is section 1208, which is the 
unconventional warfare or paramilitary funding that allows SOF 
to work with the regulars. We had a big problem in 2001 in 
Operation Enduring Freedom with this. Congress addressed this a 
couple of years back.
    As we move into an expanded definition of unconventional 
warfare, rather than applying it against state sponsors of 
terrorism, but applying it globally against transnational 
actors, where you use surrogates to try to attack al Qaeda, the 
resources are likely to go up beyond the current level.
    SOCOM is working on plans in this area. I encourage you to 
look at them and look at the resourcing requirements, which is, 
I think, well above the current levels. But that is about all I 
would say on it right now.
    Mr. Kline. Okay.
    General, did you have any thoughts?
    General Downing. No, I think SOCOM also has some 
recommendations for you, if they have not given them to you 
already, on some reforms they would like to see in their 
acquisition system allowing them to do some things faster, and 
perhaps not get caught up in that DOD acquisition bureaucracy.
    Mr. Kline. Wouldn't that be splendid?
    General Downing. That would.
    Mr. Kline. Not just for SOCOM.
    General Downing. Maybe they could be the cutting edge of 
it, to get it started.
    Mr. Kline. And just a comment I would like to make, because 
we have been talking about, particularly Mr. Boot, about the 
softer perhaps part of SOF, and the special forces role of 
training and working with indigenous personnel, and just a 
comment.
    The last couple of trips that I have taken to Iraq, we had 
the chance to talk to our Green Berets who were training the 
Iraqi--it used to be called the Iraqi counterterrorism force. 
They have changed the names because a couple of weeks have 
passed, so you have got to do that--and just doing a terrific 
job in that training.
    And by the way, the Iraqis, in our Special Operations 
Command's judgment and in our own, looking at it, we are doing 
a very good job. That is kind of a cross.
    That is not bringing them, Mr. Boot, into our Special 
Operations Command, but it is certainly working with people who 
speak Arabic and are able better to work with the local 
population. But again, that is in Iraq. And perhaps we ought to 
look at things like that elsewhere.
    And then finally, General McCrystal--thank goodness they 
are doing some kicking down doors and tracking and following. I 
still think that is an important part of what we are doing. And 
the killing of Zarqawi and many other things, classified and 
not, that they are doing are still very impressive, a very 
important part of this war.
    And I don't mean that to be argumentative with Mr. Boot, 
because I think it is important that we do the other aspect as 
well. And I am sorry that I missed the discussion with Mr. 
Larsen about what we are doing in Africa, because that seems to 
me to be very ripe for that very kind of work right now.
    And perhaps if we had a lot of time, I would like to talk 
about what has been going on in Somalia and Mogadishu and 
certain things that have not gone well there. But I won't.
    I will yield back.
    Mr. Boot. Can I just briefly----
    Mr. Kline. Oh, sure.
    Mr. Boot. Is it okay if I respond very briefly?
    Mr. Kline. Oh, yes.
    Mr. Boot. Because, I mean, I completely agree with you. I 
don't mean to say that we shouldn't be kicking down doors or we 
shouldn't be killing Zarqawi. Obviously, that is a good thing 
and a vital thing. I am just saying it is not enough.
    I mean, it is a necessary part of the war on terrorism, but 
there is a lot more that we have to do. And it is the other 
parts that I think we are not as far advanced as we are, 
because, in terms of the special mission units, they are the 
best in the world.
    They are tremendous professionals at what they do, and 
there is a little bit of room for improvement in terms of how 
they coordinate with other forces, but they are very, very 
good. But what I am suggesting is there is more room for 
improvement on the other side.
    And just to clarify, I wasn't suggesting that we should be 
recruiting people who only speak Arabic. Obviously, people who 
are going to be in the U.S. armed forces or interact with them 
have to have a basic command of English as well.
    What I was just suggesting was that we need to recruit 
native speakers of Arabic, people who will be bilingual, but it 
is very hard to become bilingual, truly, if you start off 
growing up here and trying to learn a foreign language through 
the school system.
    You have a much better chance of really having that native 
level ability if you are, in fact, a native and you can speak 
both English and your native language.
    Mr. Kline. I am glad that you clarified that, because I 
very clearly heard you say a couple of times spoke only Arabic, 
and so I am----
    Mr. Boot. No, what I was referring to was General----
    Mr. Kline. Arabic as well as English.
    Mr. Boot. Right. No, I mean, what General Downing was 
talking about was, I think, if I understood him correctly, was 
under the Lodge Act, when we were bringing Eastern Europeans in 
the 1950's into the special forces, and you had units where 
their level of proficiency in a language like Czech was high 
enough that they could converse among themselves in Czech.
    It wasn't that they didn't know English. This was the 
language they could converse in among themselves.
    Just a final point, if I could very briefly make, about 
following up on the point that Mike made about retention, which 
I agree is very important.
    And I think one of the paradoxes or one of the kind of 
screwy situations we have gotten ourselves into here is why do 
the Special Operations Forces have such a hard time retaining 
their most skilled and better operators.
    And it is because they are being recruited by private 
security contractors at very high rates of pay. And who is 
paying those private security contractors? It is the U.S. 
Government. Ultimately those people are being paid out the same 
pot of money.
    And so basically, the U.S. Government is competing against 
itself for the services of the people that it trained and paid 
for many decades in the Special Operations Forces, and we are 
basically giving these contracts to Dyncorp or others to 
recruit those people out of the special force, and then we have 
to give more incentives to keep those people in the special 
forces.
    So I don't know what the solution is, but to an outsider it 
seems like a somewhat screwy situation.
    Mr. Kline. Thank you.
    Mr. Vickers. May I add one point on the use of foreigners? 
Another approach as well, which--I was trained by early Lodge 
Act guys, but when I worked for the Central Intelligence 
Agency, we were--I can't say too much about this, but we were 
able to use foreign SOF a lot.
    We established relationships with--who had, you know, 
exquisite cultural knowledge and language that we could never 
match and skills, and then we could direct for strategic 
purposes. And that is a very, very valuable asset for the U.S. 
Government, and something that we can do more of down the road.
    Mr. Saxton. Let me just add a thought to this foreign 
language line of conversation that we have been having. I would 
go at least two steps further. It has also been mentioned here 
today as a next step to understand that we need people who 
understand local customs. A pretty simple concept.
    And to go one step further, I think we need to understand 
that people in different parts of the world think a whole lot 
differently than we do.
    And tell you how little experience that I had, the first 
time I went to Iraq back in 2003 or 2004, whatever it was, we 
went to visit a school, and while we were in the school--it was 
actually Congressional Delegation (CODEL) Hunter. And while we 
were in the school, the teachers were being just as nice as 
they could be.
    And as we were getting ready to leave, they said, you 
Americans are here to help, right? Yes, ma'am. The teacher gave 
me a list of things they needed in the school. And I didn't 
think a lot about it at the time. I took it back to Ambassador 
Bremer and gave it to him. I have no idea whatever happened to 
the list or whether it got fulfilled or not.
    But here is the conclusion that I drew. The Iraqi people 
lived for 35 years having to make one of two decisions--that is 
it--basic decisions: Be nice and cooperate with Saddam and be 
treated well and have your list fulfilled, or not cooperate 
with Saddam and be punished for it.
    Those are the decisions that those folks had to make for 35 
years. So we as Americans sit in our culture, with our way of 
thinking, trying to be creative about all kinds of things, and 
go do our own thing, and make thousands of decisions over some 
period of time, and the Iraqi people had two decisions they had 
to make: Be happy and cooperative with Saddam, or not.
    And so the use of indigenous forces, however we decide to 
structure the process to get there, is absolutely vital to our 
effort. And we need to give some more thought to how we 
interface with indigenous folks.
    Anyway, we are going to have another series of votes here 
in a few minutes. We want to thank you for being with us today.
    And I am sure that when I ask you if you will be willing to 
interface with us on an individual basis as we go forward and 
try to figure out answers to the problems that we face as to 
how we change our way of doing business, I am sure that, as you 
are all shaking your head yes, you will be there to help us.
    Thank you very much. We appreciate you being here today.
    [Whereupon, at 12:31 p.m., the subcommittee was adjourned.]


      
=======================================================================

                            A P P E N D I X

                             June 29, 2006

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 29, 2006

=======================================================================

      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                                  <all>

</pre></body></html>
